No. 20-1199

In the

Supreme Court of the United States
__________________
STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,
v.
PRESIDENT & FELLOWS OF HARVARD COLLEGE
(HARVARD CORPORATION),
Respondent.
__________________
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

__________________
BRIEF FOR RICHARD SANDER AS AMICUS
CURIAE IN SUPPORT OF NEITHER PARTY

__________________
STUART TAYLOR, JR.
Counsel of Record
3911 Jocelyn St. NW
Washington, DC 20015
(202) 365-1812
stuarttaylorjr@gmail.com
Counsel for Amicus Curiae

March 31, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
Table of Contents
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Interest of the Amicus Curiae . . . . . . . . . . . . . . . . . . 1
Summary of Argument . . . . . . . . . . . . . . . . . . . . . . . 1
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
1. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
2. SFFA v. Harvard provides four clear
opportunities for the Court to bridge the “form
versus substance” gap on the permissible use of
race in higher education admissions . . . . . . . . . . 5
3. Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ii
Table of Authorities
Cases
Fisher I,
133 S. Ct. 2419 . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fisher v. University of Texas Austin,
570 U.S. 297 (2013). . . . . . . . . . . . . . . . 8, 9, 18, 20
Gratz v. Bollinger,
539 U.S. 244 (2003). . . . . . . . . . . . . . . . . . . . 2, 3, 8
Grutter v. Bollinger,
539 U.S. 306 (2003). . . . . . . . . . . . . . . . . . . passim
Parents Involved in Community Schools v. Seattle
School District No. 1,
551 U.S. 701 (2007). . . . . . . . . . . . . . . . . . . . . . . 10
Regents of University of California v. Bakke,
438 U.S. 265 (1978). . . . . . . . . . . . . . . . . . . passim
SFFA v. Harvard,
397 F.Supp. 3d 126 (2019) . . . . . . . . . . . . . . . . . 26
SFFA v. Harvard,
980 F.3d 157 (2020) . . . . . . . . . . . . . . . . . . passim
Other Authorities
Ian Ayres and Sydney Foster, “Don’t Tell, Don’t
Ask: Narrow Tailoring after Grutter and Gratz,”
85 Texas Law Review 517 (2006) . . . . . . . . . . . . . 3
Expert Report of Peter S. Arcidiacono, Table B.4.3R
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Expert Report of Richard Kahlenberg. . . . . . . . 21, 23

iii
IPEDS (the Integrated Postsecondary Education
Data System) website, maintained by the
Department of Education: https://nces.ed.gov/
ipeds/report-your-data/race-ethnicity-reportingchanges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Report of David Card . . . . . . . . . . . . . . . . . . . . . . . . 10
Richard Sander, “A Systemic Analysis of
Affirmative Action in American Law Schools, 57
Stanford L.Rev 367 (2004) . . . . . . . . . . . . . . . . . . 3
Richard Sander, “Why Strict Scrutiny Requires
Transparency: The Practical Effects of Bakke,
Gratz, and Grutter,” chapter 15 in Kevin T.
McGuire, New Directions in Judicial Politics
(2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Susan Welch and John Gruhl, Affirmative Action
and Minority Enrollments in Medical and Law
Schools (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
Interest of the Amicus Curiae1
Richard Sander is an economist and law professor
at UCLA, and a leading scholar in the field of
affirmative action. Without compensation, he provided
advice to Students for Fair Admissions about SFFA v.
Harvard, and had authorized access to data disclosed
to SFFA under the district court’s protective order.
None of that confidential information is used or cited in
this brief, which represents only his own views.
Summary of Argument
The Supreme Court has laid down many principles
governing the boundaries of permissible racial
preferences in university admissions, but has provided
little guidance on how these principles apply to specific
empirical contexts. The present case, and its rich
factual and empirical record, provide a unique
opportunity for the Court to makes its principles more
tangible.

1

No counsel for a party wrote this brief in whole or in part, and no
party, counsel for a party, or anyone else made a monetary
contribution intended to fund the preparation of submission of this
brief. Counsel of record for all parties received notice and gave
consent to the filing of their brief at least 10 days prior to filing.

2
Argument
1. Introduction
In her dissent in Gratz v. Bollinger, Justice
Ginsburg observed: “If honesty is the best policy, surely
Michigan’s accurately described, fully disclosed College
affirmative action program is preferable to achieving
similar numbers through winks, nods, and disguises.”2
Justice Ginsburg was right. The University of
Michigan’s undergraduate admissions policy awarded
all “underrepresented minorities” a specific number of
automatic points, in order to achieve representation in
the admitted class roughly comparable to the racial
makeup of applicants. The Gratz majority ruled this
system unconstitutional on the grounds that it
militated against an individualized consideration of
each applicant’s contribution to the school’s diversity.3
But on the same day, the majority in Grutter v.
Bollinger held that the University of Michigan Law
School’s admissions process passed constitutional
muster, because the Law School described its
admissions process as a holistic one that did provide
individualized consideration and did not elevate race
above the many other facets of diversity.4 In reality, as
was known then and was later shown even more
clearly, Michigan’s law school used larger racial
preferences than the undergraduate admissions

2

Gratz v. Bollinger, 539 U.S. 244, 305 (2003).

3

Id. at 275—76.

4

Grutter v. Bollinger, 539 U.S. 306, 337—43 (2003).

3
process and gave virtually no weight to other diversity
characteristics.5
The practical effect of these two decisions was thus
exactly what Justice Ginsburg feared: colleges and
graduate schools removed transparency from their
admissions systems and institutionalized procedures
that amounted to “winks, nods, and disguises.” By
2006, Michigan’s undergraduate admissions system
was using larger racial preferences than those thrown
out in Gratz, as formulaic and mechanical in their
effects, but described in “holistic” terms.6 And a
national study of admissions data from dozens of law
schools found that their use of racial preferences had
also grown larger and more mechanical in the wake of
Grutter.7
A similar pattern had followed the Court’s 1978
decision in Regents of the University of California v.
Bakke. The Court there ruled that an explicit racial
quota in admissions (in this case, utilized by a medical
school) violated the constitution, but that a system
which considered race among many other diversity
factors, and was motivated by a desire to create a
5

See Ian Ayres and Sydney Foster, “Don’t Tell, Don’t Ask: Narrow
Tailoring after Grutter and Gratz,” 85 Texas Law Review 517
(2006); Richard Sander, “A Systemic Analysis of Affirmative Action
in American Law Schools, 57 Stanford L.Rev 367 (2004).
6

Richard Sander, “Why Strict Scrutiny Requires Transparency:
The Practical Effects of Bakke, Gratz, and Grutter,” chapter 15 in
Kevin T. McGuire, New Directions in Judicial Politics (2012), pp.
291-95.
7

Id.

4
diverse educational environment, was permissible.8 A
few years later, a survey of law and medical school
admissions officers found that most of them believed
that their competitors were still using quotas, but that
they themselves had reformed.9 In aggregate numbers,
however, the number of underrepresented minorities
admitted remained stable or rose; there was no sign
that Bakke had had any practical effect other than to
proliferate “winks, nods, and disguises.”
In short, Supreme Court doctrine on the use of
racial preferences in higher education suffers from an
acute “form versus substance” problem: does the Court
mean to actually restrict the use of race in admissions
decisions, or does it simply want universities to hide
the ball? The purpose of this brief is to show how the
record in SFFA v. Harvard poses these questions
squarely. In one area after another, the substance and
effect of Harvard policies seems to run afoul of
Supreme Court doctrine, though in form Harvard
claims to hue closely to the Court’s rules. It is possible
to show this gap between “form” and “substance”
because of SFFA v. Harvard’s uniquely empirical
character; in no other case involving university racial
preferences has the Court had before it such a rich
factual record or such sophisticated and thorough
expert reports. This record makes it possible not only
to see the actual effects of Harvard’s policies, but also

8

See generally Regents of University of California v. Bakke, 438
U.S. 265 (1978).
9

Susan Welch and John Gruhl, Affirmative Action and Minority
Enrollments in Medical and Law Schools (1998).

5
to give empirical substance to the Court’s standards for
the permissible use of racial preferences.
2. SFFA v. Harvard provides four clear
opportunities for the Court to bridge the
“form versus substance” gap on the
permissible use of race in higher education
admissions.
A. What is a quota? In the 2012-13 admissions
cycle, during which it admitted the “Class of 2017,”
Harvard received 28,606 domestic (i.e., noninternational) applications for its freshman class,
including 2,688 from Black applicants. When the dust
settled, Harvard had admitted 1,665 non-Blacks, which
was 6.4% of its 25,918 non-Black applicants. And it
had admitted 172 Blacks, which was 6.4% of its 2,688
Black applicants. In other words, the success rate of
Black and non-Black applicants was identical. Had
Harvard admitted 171 Blacks, or 174 Blacks, the
success rates of Blacks and non-Blacks would not have
matched so closely.10
This was a striking coincidence if Harvard was not
deliberately trying to achieve such a result. Even if we
suppose that Harvard race-normed its admissions
(which itself would be illegal – see below), creating
race-based weights so that the average qualifications of
applicants within each racial group were treated as
equivalent, random fluctuation would make it unlikely
that the Black/non-Black outcome would be so precisely
proportional as Harvard’s actual admissions for the
10

See generally the discussion in Expert Report of Peter S.
Arcidiacono, pp. 27-30.

6
Class of 2017. A simple Chi-square calculation shows
that even a race-normed admissions process, without
further manipulation, would produce a match this
exact only 4% of the time.
In admitting the Class of 2018, Harvard once again
admitted nearly identical percentages of black and nonblack applicants: 6.52% of its non-Black domestic
applicants and 6.58% of its Black domestic applicants.
Then it happened yet again: For the Class of 2019 (the
most recent data disclosed in the litigation), Harvard
admitted 6.08% of its non-Black domestic applicants
and 6.06% of its Black applicants. Such precisely
matching results are extraordinarily unlikely to occur
by chance, even if in all three years Harvard was racenorming the credentials of its applicants, to achieve “on
average” the same approximate proportions of
admittees of different races.11 The numbers alone are
very powerful circumstantial evidence of a “floor” on
Black admissions – in effect a target quota.
Moreover, it is easy to discern why Harvard would
have instituted a floor at this particular time. In 2007,
the federal Department of Education proposed changes
in the way colleges reported the race of their students
– changes that would have the effect of reducing

11

The plaintiff’s expert, Dr. Arcidiacono, estimated that this
outcome would happen randomly only 2 times in 1000, using a very
conservative method of calculation. Expert Report of Arcidiacono,
p. 9. A more reasonable estimate, obtained by calculating the joint
probability of the three chi-square results for the three consecutive
years, suggests the outcome would happen randomly only 1½ times
out of 10,000 occurrences.

7
Harvard’s apparent Black enrollment.12 The proposed
changes were eventually implemented, and, starting
with the Class of 2017, Harvard changed the way that
it reported race to federal authorities.13 Quietly
instituting a floor on Black admissions – by making
sure that Blacks were admitted at least at the same
rate as non-Blacks – would have been a way of making
sure that the reporting change did not produce an
unacceptable drop in Black admissions.
Of course, Harvard did not announce that it had
such a floor, and its officers denied at trial that a quota
existed. But the plaintiffs obtained evidence of day-today decisions over the admissions calendar that show
Harvard’s rate of admission for Blacks was below the
rate of admission for non-blacks until the second half
of each admissions cycle, when the Black rate rose and
then remained in very close parity with the non-Black
rate from March through the end of the admissions
cycle.14
One could hardly have more compelling evidence of
a quota, short of a formal articulation by Harvard of a
quota policy. This suggests two key issues for the
Court to consider: does the ban on quotas articulated
in Bakke apply only to overt quotas – those announced

12

See IPEDS (the Integrated Postsecondary Education Data
System) website, maintained by the Department of Education:
https://nces.ed.gov/ipeds/report-your-data/race-ethnicity-reportingchanges.
13

Expert report of Peter Arcidiacono, p. 27.

14

Expert report of Peter Arcidiacono, p. 30.

8
as policies -- or also to quotas followed as an
unannounced practice? And if it does extend to quotas
in practice, is there a way to articulate a standard that
can be empirically applied to other universities and
other admissions contexts? As the next section
explains, it is easier to answer this question once one
considers the related practice of racial balancing.
B. What is racial balancing? The Supreme Court
has repeatedly held that “racial balancing” is “patently
unconstitutional,” 15 but it has never provided much
guidance as to what this means in practice. Chief
Justice Rehnquist, dissenting in Grutter, contended
that the University of Michigan Law School was
engaged in racial balancing because the percentage of
underrepresented minorities varied within a relatively
narrow band over six admissions cycles.16
The
plaintiffs in the present litigation follow a similar
approach, pointing out that the percentage of admitted
students who are URMs is similar from year to year,
moving within a band of four percentage points over a
six-year period.17
But these arguments, on their own terms, are
unsatisfactory. If it were the case in a given year that
the objective admissions attributes of underrepresented

15

Fisher v. University of Texas Austin, 570 U.S. 297, 311 (2013)
(“Fisher I”); Grutter v. Bollinger, 539 U.S. 306, 330 (2003); Gratz v.
Bollinger, 539 U.S. 244, 281 (2003) (Thomas, J. concurring).
16

Grutter v. Bollinger, 539 U.S. 306, 382-85 (Rehnquist, C.J.,
dissenting) (2003).
17

SFFA Petition for Writ of Certiorari, p. 39-41.

9
minorities (“URMs”) were sufficient to justify the
admission of a class that was roughly 25% URMs, it
would be reasonable to expect that, barring some
important change in the composition of applicants, the
URM percentage in subsequent years would fall into
the same general ballpark. Broad similarities in
admissions rates, or similarities in the racial
composition of an admitted class across a number of
years, do not by themselves seem sufficient to show
illegal racial balancing.
Something more seems
necessary.
The example in the last section -- of Harvard’s
achievement of an exact black/non-black matching of
admission rates for three years in a row -- has that
“something more.” Any quota, whether an overt quota
maintained as an open policy, or an exact admissions
ratio achieved between two racial groups that cannot
be traced to entirely objective factors, and that would
rarely occur through the operation of random variation,
would seem necessarily to satisfy any operational test
of “racial balancing.”
In addition, the fact that the Court repeatedly uses
language about racial balancing suggests that this
concept applies to other situations that are not simply
quotas. For example, Justice Kennedy wrote in Fisher
I, “A university is not permitted to define diversity as
‘some specified percentage of a particular group merely
because of its race or ethnic origin.’ [quoting Bakke]
‘That would amount to outright racial balancing, which
is patently unconstitutional.’ [quoting Grutter] ‘Racial
balancing is not transformed from “patently
unconstitutional” to a compelling interest simply by

10
relabeling it “racial diversity.” ‘[quoting Parents
Involved in Community Schools v. Seattle School
District No. 1]”18
The Court’s refrains on racial balancing suggest it
would be troubled by admissions practices that
orchestrate distinct components of the admissions
process to obtain a specific pattern of racial admissions.
In particular, the Court might consider a university to
engage in racial balancing when the importance
assigned to race varies not on the basis of individual
contributions to diversity, but on the importance of
“balancing” the presence of various racial groups.
SFFA v. Harvard provides a rich factual record for
considering what is meant by racial balancing. First,
consider the report of Harvard’s own expert, Professor
David Card. On page 83 of his report, Card produced
a diagram (reproduced below) in which he showed the
relative influence of a series of factors on Harvard
admissions outcomes.19 The bars in the graphs showed
the pseudo-R2 that resulted when Card predicted
admissions outcomes using a variety of single factors.20
18

Fisher I, 133 S. Ct. 2419.

19

Report of David Card, p. 83.

20

Note that the pseudo-R2 measure, which is used in logistic
regressions predicting “either/or” outcomes like “admit/deny,” is
very different from the “R2" measure used in regressions
predicting such “continuous” variables as GPA, height, and so on.
A logistic model can have very high explanatory power and still
have a relatively modest pseudo-R2. The key point here, however,
is that a pseudo-R2 close to zero, like an R2 close to zero, means
that the independent variable or variables are of little or no help

11

As Dr. Card’s analysis shows, “profile ratings”
generated by the admissions process predict
admissions outcomes with a pseudo-R2 of .38 (a very
high pseudo-R2). Alumni interview ratings have a
pseudo-R2 of .13, and high school and neighborhood
variables have a pseudo-R2 of .06. But “race” as a solo
predictor of domestic admissions has an extraordinarily
low pseudo-R2 of .002 – very nearly zero. Dr. Card
argued that this very low value demonstrated that race
was given relatively little weight in the Harvard
in predicting the dependent variable.

12
admissions process.
glaringly incomplete.

But Dr. Card’s analysis is

Note that Dr. Card’s “race” regression is not
examining the effect of race when controlling for other
factors; all the parties agree that race is often a very
significant predictor in such analyses, because Harvard
admits to using racial preferences. Here, Dr. Card is
using a regression that only includes race. Race would
have no explanatory value in such a regression under
not one, but two circumstances: (a) when race is
uncorrelated with any other factor predicting
admissions, including the admissions decision itself, or
(b) when an admissions process carefully manipulates
its admissions criteria in the aggregate to produce
admission numbers for each race that are roughly
proportional to the volume of applications from that
race – what is often called “race-norming.”
Scenario (a), where an applicant characteristic is so
completely unrelated to admissions that it has no
predictive value, is actually quite hard to find. Almost
every important characteristic of applicants – their
home state, their interest in athletics, their
socioeconomic status, whether they attended a public
or a private high school – has a significant correlation
(either positive or negative) with admissions outcomes.
Scenario (a) would occur only if we used a clearly
extraneous independent variable to predict admissions,
such as the “day of the week” on which each applicant
was born. Presumably applicants born on Tuesdays
have, on average, almost exactly the same
characteristics as applicants born on any other day, so

13
“born on Tuesday” would have no correlation
whatsoever with admissions outcomes.
Race, however, is obviously not like “day of the
week.”
Each of the major racial groups has
characteristics that have strong positive or negative
correlations with many of the factors considered in
admissions. Blacks have disproportionately low test
scores; Asian-Americans have disproportionately low
athletic achievement; Hispanics have
disproportionately high socioeconomic disadvantage.
Moreover, Harvard concedes that it uses significant
racial preferences. Given the manifold relationships
between race and admissions, we would never expect
all these effects to “cancel out” and produce no
aggregate effect on admissions, unless the process were
deliberately manipulated to achieve that outcome. If
Harvard used quotas not just for Black admissions but
for all racial groups (e.g., admitted 6% of applicants
from each racial group), then the pseudo R2 in
Professor Card’s equation would be exactly 0. The fact
that Dr. Card obtains a pseudo R2 for race of .002
means that Harvard is doing something that comes
close in its effects to a quota – i.e., something that looks
like racial balancing.
To understand how Harvard achieves this
balancing, it is helpful to examine more closely the
“academic” and “personal” ratings generated at
Harvard. A major focus of SFFA has been the allegedly
discriminatory way that Harvard assigns personal
ratings to Asian-Americans. The evidence of such
discrimination is indeed extensive and powerful. But
on the question of racial balancing, it is helpful to look

14
at a broad pattern affecting all four of the major racial
groups in Harvard’s applicant pool.
To begin, average academic ratings at Harvard vary
substantially across racial lines. The proportion of
applicants who receive a “1” or a “2” academic rating
(Harvard’s highest) is 60% for Asian-Americans, 46%
for whites, 17% for Hispanics, and 9% for Blacks.21
This is not surprising – it mirrors patterns in SAT
scores and high school grades that can be documented
in any number of sources. What is striking, by
comparison, is the pattern of “personal ratings” by race.
For applicants in the 10th (top) academic decile, the
percentage of applicants with high personal ratings
was 49% for Blacks, 36% for Hispanics, 31% for whites,
and 23% for Asian-Americans.22 This racial hierarchy
is repeated in every academic decile; for example,
among students in the 7th academic decile the share of
students receiving high personal ratings is 41% for
Blacks, 31% for Hispanics, 24% for whites, and 18% for
Asian-Americans. In the 4th academic decile, high
personal ratings are obtained by 30% of Blacks, 21% of
Hispanics, 20% of whites, and 15% of AsianAmericans.23

21

Expert Report of Peter S. Arcidiacono, Table B.4.1R (using
Arcidiacono’s “expanded sample”).
22

Expert Report of Peter S. Arcidiacono, Table B.5.5, (page 118 of
pdf). The table is labeled “baseline” sample, but Arcidiacono
makes clear in the text of his report (at p. 41) that this table
describes the full applicant pool.
23

Id.

15
There are two key points here. First, the racial
hierarchy of “personal ratings” is the mirror image of
the “academic ratings” pattern: Blacks first, Hispanics
second, Whites third, Asians fourth. This is exactly the
pattern Harvard would want to achieve if it sought to
“racially balance” the effect of the academic ratings.
Second, the strong association between “race” and
“personal ratings,” and the consistent racial hierarchy,
is inconsistent with all available evidence on the actual
predictors of personal ratings.
--Harvard’s own “extracurricular” ratings, which are
more objective and formulaic than its personal ratings,
show no particular racial pattern, but a strong
association between academic achievement and
extracurricular achievement.24 For example, among
applicants in the 10th (top) academic index decile, the
percentage of students with high extracurricular
ratings is 38% for Blacks, 35% for Asian-Americans,
32% for whites, and 29% for Hispanics; among
applicants in the seventh academic decile, high
extracurricular ratings were held by 28% of AsianAmericans, 27% of Hispanics, 26% of whites, and 26%
of Blacks. There is a marked “academic” pattern but
no “racial” pattern.
--UCLA has publicly disclosed detailed data on its
admissions practices during several admissions cycles
when it was not permitted to use racial preferences.
Here, too, there was a strong association between
24

Id. at Table 5.4, p. 47. The personal ratings as measured by
Harvard alumni (as opposed to admissions staff) show some racial
pattern, but one that is quite muted, and much more strongly
associated with academic performance.

16
academic achievement and personal ratings, but no
particular association between race and personal
ratings. At UCLA, the share of applicants in the top
academic decile with high personal ratings, for the
Classes of 2008 through 2010, were 28% for AsianAmericans, 26% for Blacks, 25% for whites, and 23%
for Hispanics. No racial group in the next-to-top
academic decile had average personal ratings as high
as any of the racial groups in the top decile-- students
who excel academically also tend to make exceptional
contributions to their schools and their communities,
regardless of their race. For UCLA applicants in the
8th academic decile, the personal ratings of all races are
again lower: 16% of whites, 15% of Blacks, 14% of
Asian-Americans, and 13% of Hispanics score high
personal ratings.25 Here again, there is a marked
academic pattern but no “racial” pattern.
SFFA is probably right that Harvard’s personal
ratings have a strong discriminatory effect upon Asian
Americans. The broader point here, however, is that
Harvard manipulates the subjective components of the
personal rating to achieve an extremely implausible
hierarchy of races that directly offsets disparities in
objective academic rankings. As elaborated below,
Harvard also uses (and concedes that is uses) racial
preferences to foster diversity. These preferences also
have the same symmetrical pattern as the personal
ratings: Blacks receive the largest racial preferences,
then Hispanics, with Whites in some middle range,
with Asian-Americans disfavored relative to whites.
25

Analysis of publicly-available UCLA admissions data by amicus,
available on request.

17
These patterns at Harvard suggest a simple, twofold
test for illegal racial balancing: (1) rates of admission
across racial groups that are markedly more similar
than can be justified by objective criteria, and (2) the
use of subjective criteria that produce sharply different
average evaluations across otherwise similar
applicants from different racial groups and have the
effect of erasing or substantially reducing disparities in
objective qualifications. Strong evidence of this second
component of the test exists when (a) the subjective
inputs into an important criterion (like Harvard’s
personal rating) produce very different results on a
race-by-race basis than the objective inputs, and
(b) these subjective criteria produce a “hierarchy”
across races that is the direct inverse of the average
differences across races on objective criteria.
A test of this type helps to distinguish situations
where fair and race-neutral criteria nonetheless
produce a relatively stable racial pattern of admissions
over several years – which the Court presumably does
not consider racial balancing – from a situation where
either racial preferences themselves, or subjective
criteria that appear to be heavily influenced by race (or
both, as at Harvard), are used to “balance” objective
criteria and produce outcomes across racial groups that
are more harmonized than can be explained with
objective criteria.
Having greater clarity about “racial balancing” can
also help to clarify a legal standard for a “quota.” The
essence of a quota is the combination of some evidence
of racial balancing, sufficient to make a balancing
agenda plausible, combined with the achievement of

18
such precise racial results (such as the Black/non-Black
results discussed above) as would be very unlikely to
occur by chance.
C. What does it mean to treat race as the “defining
feature” of an application?
In Grutter, Justice
O’Connor observed that “[w]hen using race as a ‘plus’
factor in university admissions, a university’s
admissions program must remain flexible enough to
ensure that each applicant is evaluated as an
individual and not in a way that makes an applicant’s
race or ethnicity the defining feature of his or her
application.
The importance of this individual
consideration in the context of a race-conscious
admissions program is paramount.”26 In Fisher I,
Justice Kennedy emphasized this point: “the University
must prove that the means chosen to attain diversity
are narrowly tailored to that goal. On this point the
University receives no deference….It remains at all
times the University’s obligation to demonstrate, and
the Judiciary’s obligation to determine, that admissions
processes ‘ensure that each applicant is evaluated as
an individual and not in a way that makes an
applicant’s race or ethnicity the defining feature of his
or her application.’”27 In other words, the question of
when race becomes the “defining feature” of an
application, rather than a “plus” factor (or, in
Harvard’s terminology, a “tip”), is a very central test in
the Court’s evaluation of permissible preferences.

26

539 U.S. at 337.

27

133 S.Ct. 2411, 2420 (2013).

19
Here again, the rich facts in SFFA v. Harvard can
assist the Court in giving quantitative substance to its
very subjective standard. Harvard does not concede
that racial considerations are factored into its personal
ratings of applicants, but Harvard does concede that
(entirely apart from the personal ratings), it gives
consideration to race. There are a variety of methods
used by the parties to demonstrate and quantify those
preferences. To really understand the effects of these
preferences – and the disagreements about those
effects – an examination of Table 7.1 of Dr.
Arcidiacono’s expert report is very helpful.28 The table
summarizes analyses Dr. Arcidiacono conducted that
modeled the Harvard admissions process and measured
the characteristics of an Asian-American applicant that
would produce a 25% chance of admission. Arcidiacono
then varied specific characteristics of that applicant to
show how they changed admissions chances across
racial lines.
Thus, when one considers an Asian-American male
applicant who is not “disadvantaged” under Harvard’s
classification, and has characteristics and evaluations
that would produce a 25% change of admission, those
admission chances rise to 34% if one changes the
applicant’s race to “white,” 74% if one changes the
applicant’s race to “Hispanic,” and 93% if one changes
the applicant’s race to “African American.” For nondisadvantaged female applicants, the corresponding
percentages are 25% for Asian-Americans, 30% for
whites, 70% for Hispanics, and 92% for African-

28

Expert report of Peter S. Arcidiacono, p. 69.

20
Americans.29 In other words, the effect of Harvard’s
use of race is to change an applicant from one with a
modest but reasonable shot at admission to one who is
a nearly-certain admit. For these Asian and Black
applicants, it is hard to see how race is not the
“defining feature” of their application. If the Court’s
language in Fisher and Grutter means something else,
this case is a valuable vehicle through which to clarify
what the standard does mean.
Table 7.1 repays careful study, because it also
allows the reader to understand the effect of the
various datasets and definitions used by SFFA and
Harvard. For example, Arcidiacono argued that certain
categories of applicants (e.g., athletes, legacy admits,
and children of faculty) should be excluded from the
principal analyses, because they were admitted under
very different procedures from the “regular”
applicants.30 Table 7.1 allows one to see how admission
probabilities are affected by race for both the full
(“expanded”) and limited (“baseline”) datasets (in
general, these probabilities only shift a few points
under either scenario). Arcidiacono also argued that
Harvard’s “overall” and “personal” ratings should be
excluded in measuring racial preferences, because
those ratings were themselves substantially influenced
by racial considerations. He may be right, but in any

29

Id.
Note that 88% of Harvard applicants are not
“disadvantaged”, so these percentages for non-disadvantaged
males and females cover the vast majority of Harvard applicants.
Id. at p. 93 (Table A.7).
30

Expert Report of Peter S. Ancidiacono, pp. 20-23.

21
case Table 7.1 allows one to compare how admissions
probabilities change under either procedure.
D. What does the Court mean by “diversity?” It is
well understood that the Court only permits
universities to use racial admissions preferences when
they have determined “race-neutral alternatives”
cannot achieve levels of diversity sufficient to meet the
school’s educational objectives. SFFA has pointed out
the inadequacy of both the timing and substance of
Harvard’s search for “race-neutral alternatives.” The
question we consider here is what counts in the search
for diversity. Is “diversity” a codeword for “racial
diversity,” or is race simply one component of a much
broader concept?
The rich empiricism in the SFFA v. Harvard helps
us to understand the issue vividly. The expert report
of Richard Kahlenberg points out that Harvard’s
student body is notably lacking in socioeconomic
diversity. He quotes from Professor Raj Chetty’s
finding that “approximately 3% of children at Harvard
in the 1980-82 birth cohorts [i.e., students in the
Classes of 2002 to 2004] come from the lowest quintile
of families, compared with more than 70% from the top
quintile.”31 One way of putting this statistic in context
is through a measure of underrepresentation; if
roughly 20% of children come from the bottom income
quintile,32 but only 3% of Harvard students do, then
31

Expert Report of Richard Kahlenberg, p. 20; other examples are
discussed there.
32

The true number would be somewhat higher, since children are
disproportionately clustered in poor households.

22
this group has a representation of .15 (.03/.20) – i.e,.
about 85% less than parity.
Tables 1 and 2, below, compare the representation
of the two largest “underrepresented” racial groups
(Blacks and Hispanics) with that of what Harvard calls
“disadvantaged” students (who are drawn from roughly
the lowest two-thirds of U.S. households in terms of
income or educational background).
The tables
illustrate two things: currently, Harvard excels in its
representation of Blacks and Hispanics, but fares very
poorly in its representation of the socioeconomically
“disadvantaged.”
Under a typical Kahlenberg
simulation of a race-neutral admissions policy (this one
drawn from p. 49 of his report), representation of
Blacks drops slightly while representation of Hispanics
improves and representation of the disadvantaged
improves very dramatically. If “diversity” includes
both socioeconomic and racial factors, it is hard not to
see the Kahlenberg simulation as producing a more
diverse class.

23
Table 1. Representation of racial and socioeconomic
minorities at Harvard33
Group

% Presence
Nationally
(among young
adults w/high
school diploma)
(a)

% of
Harvard
Freshmen
Class of
2019

Representation
(b/a)

(b)

Black

13%

13.6%

1.05

Hispanic

14%

12.9%

.93

“Disadvantaged”

66%

17.4%

.26

33

Data in column (a) comes from author’s analysis of American
Community Survey data (for race) and Expert Report of Richard
Kahlenberg. Data in column (b) comes from the Kahlenberg
report, p. 49.

24
Table 2. Representation of racial and socioeconomic
minorities at Harvard under a Kahlenberg simulation.
Group

% Presence
Nationally
(among
young adults
w/high
school
diploma)
(a)

% of
Harvard
Freshmen
Class of
2019

Underrepresentation
(b/a)

(b)

Black

13%

10.1%

.78

Hispanic

14%

13.5%

.96

“Disadvantaged”

66%

54.3%

.82

.
What does the Supreme Court mean by universities’
“diversity” interest? In Bakke, Justice Powell famously
cited Harvard’s description of its admissions program,
and observed, “In such an admissions program, race or
ethnic background may be deemed a ‘plus’ in a
particular applicant’s file, yet it does not insulate the
individual from comparison with all other candidates
for the available seats. The file of a particular black
applicant may be examined for his potential
contribution to diversity without the factor of race
being decisive when compared, for example, with that
of an applicant identified as an Italian-American if the
latter is thought to exhibit qualities more likely to

25
promote beneficial educational pluralism.
Such
qualities could include exceptional personal talents,
maturity, demonstrated compassion, a history of
overcoming disadvantage, ability to communicate with
the poor, or other qualifications deemed important. In
short, an admissions program operated in this way is
flexible enough to consider all pertinent elements of
diversity . . ., and to place them on the same footing for
consideration, although not necessarily according them
the same weight [emphasis added].”34
In Grutter, the majority specifically endorsed
Justice Powell’s view of diversity. As Justice O’Connor
approvingly wrote, “Justice Powell was . . . careful to
emphasize that in his view race ‘is only one element in
a range of factors a university properly may consider in
attaining the goal of a heterogeneous student body.’ For
Justice Powell, ‘it is not an interest in simple ethnic
diversity, in which a specified percentage of the student
body is in effect guaranteed to be members of selected
ethnic groups,’ that can justify the use of race. Rather,
‘the diversity that furthers a compelling state interest
encompasses a far broader array of qualifications and
characteristics of which racial or ethnic origin is but a
single though important element.’”35
In marked contrast, the District Court below clearly
believed that “diversity” and “racial diversity” are one
and the same. Throughout its discussion of raceneutral alternatives, the Court never weighs one type

34

Bakke 317.

35

Grutter 324-25.

26
of diversity against another, but focuses exclusively on
whether any alternative policy would reduce Harvard’s
racial diversity.
It observes, for example, that
“Harvard could adopt a more significant tip for
economically disadvantaged students, but every such
proposal presented to the Court would result in a
significant decline in African American representation.
Achieving even roughly comparable levels of combined
African American and Hispanic representation to those
Harvard presently achieves would require Harvard to
sacrifice the academic strength of its class and forgo
other admissions policies….and still be less diverse
than it is currently [emphasis added].”36 By all
indications, the Court attached zero weight to
socioeconomic diversity.
The same, exclusive focus on racial diversity comes
through in the First Circuit opinion. All discussions of
race-neutral alternatives focus entirely on their effects
upon racial diversity; there is no acknowledgement of,
nor concern about, the great underrepresentation of
students from economically disadvantaged
backgrounds.37 Throughout the opinion, the court
treats “diversity goals” as equivalent to “racial
diversity goals.”

36

P. 122 of released District Court opinion, reported at 397 F.Supp.
3d 126 (2019).
37

SFFA v. Harvard, 980 F.3d 157 (2020); in text version, pp. 37-43
(discussing the Smith Committee); pp. 77-83 (holding that the
District Court did not err in finding no workable race-neutral
alternatives).

27
The rich facts of SFFA v. Harvard create an
opportunity to clarify the meaning of the diversity
rationale. Mr. Kahlenberg’s report amply documents
that socioeconomic diversity is at least equal to racial
diversity in fostering a community with a wide range of
experiences and beliefs. It also demonstrates that
Harvard can not only eliminate racial preferences, but
also remedy its dramatic lack of socioeconomic
diversity, with modest (and, for Hispanics, beneficial)
effects on racial diversity. Is race entitled to “sui
generis” consideration? And if so, is the Court’s call for
“race-neutral alternatives” purely a call for developing
algorithms that can find clever substitutes for race that
produce identical racial results?
3. Conclusion
Amicus has sought in this brief to highlight both the
ambiguities of current Court doctrine and the
opportunities created by SFFA v. Harvard to bring
greater clarity. Declining certiorari for this case would
be tantamount to endorsing the belief that universities
may make use of racial preferences and penalties as
they like, so long as they avoid certain forbidden words
in describing their practices. Granting certiorari
provides a unique opportunity for the Court to show
the failings of current doctrine, and to either clarify
how current standards should be applied in practice, or
articulate new broad principles that will have
substance as well as form. In either case, it is
important to break with the past practice of appearing
to articulate principles while leaving them toothless.
This approach has fostered a culture of dishonesty
about racial practices in higher education that is deeply

28
unhealthy and leaves all groups feeling manipulated
and resentful.
Respectfully submitted,
STUART TAYLOR, JR.
Counsel of Record
3911 Jocelyn St. NW
Washington, DC 20015
(202) 365-1812
stuarttaylorjr@gmail.com
Counsel for Amicus Curiae

